                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF LNVESTlGAl'IONS

                                               CLOSEOUT MEMORANDUM

   Case Number: A-09020006                                                                       Page 1 of 1



            We received an allegation of intellectual theft from the complainant.' The complainant said that
            three individuals (subjects)' took ideas from his NSF p r ~ p o s a l .We
                                                                                   ~ contacted the complainant,
            who, after reviewing his emails and files, explained that he had been at fault and that no theft had
            occurred. He explained how he had provided a copy of the proposal to another person telling
            him he could use the ideas contained in it to develop his own career as he wished, which he did.

            Given the complainant's information and our review and comparison of the proposal with
            another relevant d o ~ u m e n twe
                                            , ~ concluded there was no intellectual theft.

            This case is closed.




11'NSF OIG Fo~m2 ( 11/02)
